      Barriers to Retail Network Optimization




                               June 9, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-005
U.S. Postal Service Office of Inspector General                                                     June 9, 2011
Barriers to Retail Network Optimization                                                          RARC-WP-11-005



                     Barriers to Retail Network Optimization


                                         Executive Summary

The retail presence of the U.S. Postal Service has changed very little since 1971.
Whereas 45,000 Post Offices were closed between 1901 and 1971, when Congress
was footing the bill for unneeded retail facilities, only 4,000 have closed in the 40 years
since then. But a consensus is finally emerging that the retail network needs
modernization. The U.S. Postal Service Office of Inspector General has shown how
location economics and retail best practices can devise an optimized network that aligns
retail supply to demand and serves current lifestyles better than the legacy network and
at lower cost.1 However, any effort to optimize the network faces a daunting array of
obstacles that have emerged over years of conflict about closing Post Offices.

The obstacles standing in the way of retail modernization have many sources. Statutory
restrictions prevent closing Post Offices for economic reasons and impose requirements
for onerous notice, consultation, and appeal procedures. Regulatory obstacles take the
form of a time-consuming and expensive review of individual consolidation decisions by
the Postal Regulatory Commission as well as a broader determination whether
optimization would entail a nationwide change in the nature of postal services. Political
obstacles are raised by well-organized and highly motivated opponents of consolidation
or closure, by the absence of allies in legislative and regulatory proceedings, and by the
common impulse of members of Congress to oppose changes in public facilities within
their constituencies. Yet another category of obstacles is institutional within the Postal
Service itself, and largely self-imposed.

Efforts to optimize and modernize the retail network need to address the adverse impact
of these statutory, regulatory, and political barriers, but mitigating these barriers may
take time and is not entirely within Postal Service control. In the interim, management
should focus on the institutional barriers that it can control. These obstacles include a
lack of sustained management attention to the need to revamp the retail function, a lack
of comprehensive cost data that prevents the Postal Service from placing a value on
savings available from modernization, past dependence on a highly decentralized
bottom-up process for identifying redundant locations, and the absence of a strategic
retail vision that would elevate the debate from the tired battle over closing Post Offices.

Although recent history is discouraging, the Postal Service appears to be renewing its
optimization efforts. Obstacles to retail modernization are not insurmountable, and
policymakers are increasingly aware of the need for change in the postal system. Some
tactical alterations such as enhancing data quality and articulating a positive vision of

1
 U.S. Postal Service Office of Inspector General, Analyzing the Postal Service’s Retail Network Using an Objective
Modeling Approach, Report No. RARC-WP-10-004, June 14, 2010,
http://www.uspsoig.gov/foia_files/RARC-WP-10-004.pdf.


                                                         i
U.S. Postal Service Office of Inspector General                               June 9, 2011
Barriers to Retail Network Optimization                                    RARC-WP-11-005


retail optimization and modernization including a top-down component could improve
chances for success. Alternatively, if optimization seems unobtainable, the Postal
Service may want to again seek a public service appropriation, as Congress provided
from 1971 to 1982 and is still authorized, to cover the costs of the legacy network. Even
if the Postal Service is able to successfully optimize the network, the Postal Service
might want to request appropriations to cover those Post Offices that are needed for
universal service yet cannot be turned from cost centers into profit centers.




                                                  ii
U.S. Postal Service Office of Inspector General                                                                   June 9, 2011
Barriers to Retail Network Optimization                                                                        RARC-WP-11-005




                                                 Table of Contents

Introduction ..................................................................................................................... 1 

Efforts to Optimize the Retail Network............................................................................. 2 
          Recent Retail Modernization Initiatives ................................................................. 3 
          Station and Branch Optimization and Consolidation (SBOC)
          Initiative of 2009 ................................................................................................... 4 
          New Rules for Closures and Consolidations ........................................................ 5 

Barriers Hindering Optimization ...................................................................................... 6 
          Statutory Barriers.................................................................................................. 7 
          Regulatory Barriers............................................................................................. 10 
          Political Barriers.................................................................................................. 12 
          Institutional Barriers ............................................................................................ 14 

Conclusion .................................................................................................................... 18 


                                                           Tables

Table 1                 Barriers to Optimization ......................................................................... 6 

Table 2                 Statutory Barriers................................................................................... 7 

Table 3                 Regulatory Barriers.............................................................................. 10 

Table 4                 Political Barriers................................................................................... 13 

Table 5                 Institutional Barriers ............................................................................. 14 


                                                            Figure

Figure 1                Number of Post Offices, 1900-2010 ...................................................... 3 




                                                                 iii
U.S. Postal Service Office of Inspector General                                  June 9, 2011
Barriers to Retail Network Optimization                                       RARC-WP-11-005




                    Barriers to Retail Network Optimization


Introduction
Virtually every contemporary study of the Postal Service’s business model has identified
the need for the Postal Service to revamp its vast retail network as a result of changing
demand for postal services. A series of reports by the
Government Accountability Office (GAO), the Postal                 Virtually, every
                                                                   contemporary study
Service’s 2002 Transformation Plan and its current Action
                                                                   of the business
Plan for the Future, and even Congress itself in passing the       model has identified
Postal Accountability and Enhancement Act (PAEA) have              the need to revamp
all urged the Postal Service to adjust its retail network of       the retail network.
36,000 retail facilities. In June 2010, the U.S. Postal
Service Office of Inspector General (OIG) took the next step and issued a report offering
an objective approach to retail optimization based on economic modeling. Drawing on
public facility location research and best practices, the report presented an economic
model to estimate the optimal number, size, spacing, and staffing of Postal Service
retail facilities for maximizing public benefit by matching the demand for retail services
to the cost of providing them.2

While the Postal Service and many of its stakeholders can see the value of using
economic modeling to plan an optimal retail presence, devoting effort to perfecting this
approach may seem impractical given the traditional sensitivity that Post Office location
decisions have involved. A century-long history of efforts to bring retail facilities in line
with changing American demographics and lifestyles has left a legacy not only of 36,000
facilities established many decades ago, but also an array of obstacles to change that
have discouraged modernization efforts in both distant and recent memory. This white
paper takes a fresh look at the obstacles and barriers that seemingly prevent the Postal
Service from developing an optimal modern retail network as described in the OIG
report. It begins with an interpretive summary of the history of past efforts to adapt retail
locations to a changing society, then identifies and analyzes the statutory, regulatory,
political, and institutional barriers that have impeded past efforts, and concludes with
some suggestions that might help remove some of these barriers and permit a rational,
comprehensive approach to retail modernization.




2
    Ibid.


                                                  1
U.S. Postal Service Office of Inspector General                                                    June 9, 2011
Barriers to Retail Network Optimization                                                         RARC-WP-11-005



Efforts to Optimize the Retail Network
In the 19th century, as the nation expanded westward and commercial agriculture
became its leading occupation, the Post Office Department kept pace by establishing
new Post Offices in every town and hamlet for citizens to post letters and collect mail
and packages. Home delivery was confined to cities. By the beginning of the
20th century, there were 76,945 Post Offices, one for every thousand residents, forming
a vast network that helped bind the growing nation together. In 1902, however,
Congress extended free delivery to rural areas. It was no longer necessary for patrons
to visit an office to send or pick up mail. Since the Post Office Department was
subsidized by appropriations, Congress kept up pressure to economize, resulting in a
rapid and sustained reduction in Post Offices through most of the century. This was not
especially controversial, because rural patrons felt they were better off with free
delivery. Rural carriers provided retail services as part of their routes. Also, with
                                 urbanization, annexation, and steady improvements in
  Under the Post Office          transportation, thousands of small towns disappeared as
  Department, Congress           distinct entities along with the Post Offices that had served
  kept up the pressure to        them. Growth in urban areas was typically accommodated
  economize by closing           not by the creation of new independent Post Offices, but
  Post Offices.                  by the establishment of stations (inside city limits) and
                                 branches (outside city limits) which had most of the
functions of a Post Office but were not headed by a postmaster. Instead, these
branches and stations were under the jurisdiction of a city’s single main Post Office. As
shown in Figure 1, by the time the Postal Service was established in 1971, there were
31,947 Post Offices — a reduction of nearly 45,000 since the high point in 1901. In
addition, there were 3,906 Postal Service-operated stations and branches and 6,434
retail units operated by contractors.3

Once Congress no longer had to bear the cost burden of unneeded facilities through
appropriations, the pace of Post Office closings began to fall sharply. Since the Postal
Service became independent, there has been only a modest reduction in the total
number of Post Offices, stations, and branches operated by the Postal Service from
35,853 in fiscal year (FY) 1971 to 31,871 in FY 2010, a net reduction of 4,000 units over
40 years, or an average of 100 per year.4 Although the General Accounting Office
(GAO — now the Government Accountability Office) issued a series of reports urging
that efficiencies were to be gained by consolidation of rural retail facilities, Congress
was not supportive. Until it began to suffer real financial problems in this century, there
was no concerted Postal Service initiative to reduce or modernize its retail presence. As
its financial condition has deteriorated, however, the Postal Service has focused new
attention on the cost burden of excess facilities.




3
 U.S. Post Office Department, Annual Report of the Postmaster General, 1971, p.23.
4
 Ibid. and U.S. Postal Service, 2010 Annual Report, http://www.usps.com/financials/_pdf/usps2010annual-report.pdf,
p. 83.


                                                        2
U.S. Postal Service Office of Inspector General                                                            June 9, 2011
Barriers to Retail Network Optimization                                                                 RARC-WP-11-005

                                                 Figure 1: Number of Post Offices, 1900-2010

                                    90,000


                                    80,000
                                                 Nearly 45,000
                                    70,000       Post Offices Closed
           Number of Post Offices




                                    60,000


                                    50,000


                                    40,000


                                    30,000


                                    20,000
                                                                                        Closures slowed after
                                                                                        Postal Reorganization
                                    10,000



                                         1900 1910 1920 1930 1940 1950 1960 1970 1980 1990 2000 2010

Source: U.S. Statistical Abstracts and U.S. Postal Service Annual Reports


Recent Retail Modernization Initiatives

In 2002, the Postal Service Transformation Plan established a goal of reducing the
number of “redundant, low-value” retail facilities. While the plan gave some examples of
revenue-losing units, the Postal Service offered no definition of value or redundancy nor
did it adopt a facility or cost-reduction target. When the Plan was updated in 2005, the
Postal Service “purposely removed mention of retail facility closures, as it is difficult to
agree and establish criteria that could be applied to all locations…. We have learned
that each facility must be assessed on a case-by-case basis, and we intend to continue
to use this method.”5 In a 2007 report, GAO suggested some criteria but said the Postal
Service did not capture the data needed to apply them.6 The Postal Service did not
accept GAO’s recommendation to collect more comprehensive data and use it to
identify and close unneeded facilities, repeating the rationale that all decisions should
be made locally and based on local considerations. 7

The President’s Commission on the United States Postal Service focused a great deal
of attention on the urgent need to reduce the processing and distribution network and
5
  U.S. Government Accountability Office, U.S. Postal Service: Facilities: Improvements in Data Would Strengthen
Maintenance and Alignment of Access to Retail Services, Report No. GAO-08-41, December 10, 2007,
http://www.gao.gov/new.items/d0841.pdf, p. 56.
6
  The criteria were drawn from Executive Order 13327, Federal Real Property Asset Management, and included
measuring the contribution of facilities to an agency’s mission and objectives, and tracking utilization rates, physical
condition, and annual operating costs. The Postal Service is not bound by the executive order. Ibid.
7
  Ibid., p. 56.


                                                                       3
U.S. Postal Service Office of Inspector General                                                     June 9, 2011
Barriers to Retail Network Optimization                                                          RARC-WP-11-005


recommended a base-closure-type process to overcome political obstacles in its 2003
report. It pointedly did not make comparable recommendations regarding the retail
network. On the one hand, the Commission urged the Postal Service to expand retail
access through consignment with retail stores and banks, pointing out that this was one
seventh as costly to the Postal Service as selling stamps at a Post Office. On the other
hand, it did not address a need for modernization of the retail network, even if retail
access in these forms was expanded (as it has been). In fact, the Commission’s
recommendation was that “low activity post offices that continue to be necessary for the
fulfillment of the Postal Service’s universal service obligation should not be closed,
even if they operate at a substantial economic loss. [emphasis in original]”8
The Postal Law of 2006 nevertheless provided a fresh opportunity to address
redundancy in postal retail facilities by requiring the Postal Service to develop a plan by
June 2008 to “rationalize” its network of facilities, remove excess capacity from the
network, and identify cost savings and other benefits to be gained by rationalization.
GAO recommended that the Postal Service “institute a proactive, criteria-based
approach to identify and close unneeded retail facilities” as part of the plan, but the
Postal Service rejected the recommendation and chose instead to focus its plan solely
on “our mail processing network, not retail facilities.”9

Station and Branch Optimization and Consolidation (SBOC) Initiative of 2009
In May 2009 the Postal Service informed the American Postal Workers Union that it
intended to review its “larger stations and branches” for “possible discontinuance.”
Branches and stations are not headed by a postmaster, but in other respects handle the
same delivery and retail functions that independent Post Offices do. As an extreme
example, there is only one Post Office in the District of Columbia, located in an
industrial area in the northeast quadrant of the city, but each of its residents is within
easy reach of one, or more commonly several, of its 60 stations, branches, and contract
facilities. Though the Postal Service did not say so, the focus on larger installations
(those reporting to postmasters at EAS Level 24 and above, from 3,100 to 3,600 in
number), avoided statutory restrictions on consolidating small and small rural Post
Offices. At the time, internal Postal Service guidance instructed managers to use an
expedited process for closing a station or branch (as distinct from a Post Office) that
provided a 20-day public comment period and did not allow for an appeal.
On July 2, 2009, the Postal Service filed a request with
                                                             The Postal Service
the Postal Regulatory Commission (PRC) for an                requested an advisory
advisory opinion on whether this initiative constitutes a    opinion from the PRC on
change in the nature of postal services that would trigger   its effort to close stations
a PRC review of the initiative’s conformance with the        and branches in 2009.
policies of title 39 of the U.S. Code. The number of
branches and stations identified as candidates for a discontinuance study was initially
8
  Embracing the Future, Report of the President’s Commission on the United States Postal Service, July 31, 2003,
pp. 82-83.
9
  U.S. Government Accountability Office, U.S. Postal Service: Facilities: Improvements in Data Would Strengthen
Maintenance and Alignment of Access to Retail Services, Report No. GAO-08-41, December 10, 2007,
http://www.gao.gov/new.items/d0841.pdf, pp. 55-56.


                                                         4
U.S. Postal Service Office of Inspector General                                                       June 9, 2011
Barriers to Retail Network Optimization                                                            RARC-WP-11-005


given as 677, and since then has been reduced further to 162. Most of the public
witnesses at a July 30, 2009, House Committee hearing were critical of the initiative on
the grounds that retail customers and employees would be inconvenienced.
The PRC’s advisory opinion, issued on March 10, 2010, took note of the reduction in the
scope of the review to only 162 locations and said that would be unlikely to constitute a
nationwide change in service. But in other respects its opinion was bad news for the
Postal Service. Most seriously, it reiterated previous holdings that closing a branch or
station was indistinguishable from closing a Post Office and that it required the full
statutory comment, notification, and appeal procedures that have dissuaded the Postal
Service from closing Post Offices in the past. It also said that financial data and analysis
used by the Postal Service was faulty and could not support findings of improved
efficiency and its assumption that no revenue would be lost.10
For nearly a year after the PRC issued its opinion, the Postal Service was relatively
silent on the station and branch consolidation initiative. The list of stations and branches
under review for discontinuation has not been updated since February 2010 and is no
longer available on the Postal Service’s website; however, the Postal Service has lately
begun taking action. Many of the stations and branches on the Postal Service’s list have
been closed — some very recently. A few of these closures have been appealed to the
PRC, and the PRC has affirmed the Postal Service’s decision to close stations in at
least three cases.11

New Rules for Closures and Consolidations

In a sign of the Postal Service’s increased focus on its retail network, rule changes to
improve the closure process were proposed on March 31, 2011.12 The most significant
                                 change would align the discontinuance procedures for
  The Postal Service             stations and branches on one hand and Post Offices on
  proposed new closure           the other, but there are several other important features.
  and consolidation
                                 The proposed rule allows headquarters or the local district
  procedures in March.
                                 to suggest facilities for possible discontinuance. Under the
previous rule, only the district manager could suggest facilities for closure — a bottom-
up, case-by-case approach that did not allow for a comprehensive, consistent
optimization program across the network. Consolidations of Post Offices into Postal
Service-operated stations or branches would no longer trigger the discontinuance
process.
Finally, the new rule would allow personnel other than postmasters to run Post Offices
and permits postmasters to oversee more than one Post Office, essentially breaking the
link between postmasters and Post Offices. Such a change has the potential to
revolutionize the management of the retail network. Taken together, the proposed

10
   U.S. Postal Regulatory Commission, Advisory Opinion Concerning the Process for Evaluating Closing Stations and
Branches, Docket No. N2009-1, March 10, 2010, http://www.prc.gov/Docs/67/67174/Advisory_Opinion_031010.pdf,
pp. 57-61.
11
   The Postal Service disputes whether the PRC has authority to hear appeals of station and branch closings.
12
   “Post Office Organization and Administration: Establishment, Classification, and Discontinuance,” Federal Register,
76, No. 62 (March 31, 2011), pp. 17794-17801.


                                                          5
U.S. Postal Service Office of Inspector General                                                   June 9, 2011
Barriers to Retail Network Optimization                                                        RARC-WP-11-005


changes provide new flexibilities for the Postal Service to pursue optimization, and the
Postal Service is in the process of updating its Post Office Discontinuance Guide to
provide additional guidance.
The proposal faces opposition, however. The National Association of Postmasters of
the United States (NAPUS), the League of Postmasters, and four individuals filed a
complaint to the PRC about the proposed rule on May 23, 2011.13 The complaint argues
that breaking the link between a postmaster and a Post Office and ending
discontinuance procedures for the consolidation of Post Offices into stations and
branches violate the law. Moreover, the complaint suggests that the proposed changes
are part of an initiative to close thousands of Post Offices, and such an initiative should
require review by the PRC as a nationwide change of service. The proposed rule
changes are still subject to discussion, and whatever the outcome, barriers to an
effective retail rationalization will remain.


Barriers Hindering Optimization
The Postal Service points to statutory, regulatory, and political barriers as the
explanation for the slow pace of change since postal reorganization, and indeed these
external factors have made an important difference. Addressing them is essential to
ensure the success of any optimization and modernization effort. But of comparable
importance has been the existence of a number of internal, institutional barriers that
have inhibited modernization of the retail network. If the cycle of inaction is to be
broken, the Postal Service must address not only the externally imposed barriers, but
the institutional ones as well.
                                     Table 1: Barriers to Optimization

 Category                                                     Barriers
Statutory          Restriction in 39 U.S.C. § 101 against closing Post Offices solely for operating at a
                    deficit.
                   Annual appropriations proviso against use of funds to close or consolidate any small
                    Post Offices.
                   Procedural requirements in 39 U.S.C. § 404(d) for community study, notice, publication
                    of findings, and appeal to the PRC of any proposed Post Office closing or consolidation.
Regulatory         Time and expense of appeals process.
                   PRC’s expanded definition of “Post Office.”
                   Review of optimization as a nationwide change of service.
Political          Congressional complaints about closures.
                   Motivated and well-organized political opponents.
                   Lack of political allies in congressional and PRC proceedings.
Institutional      Lack of sustained management commitment.
                   Lack of a well-articulated strategic retail vision.
                   Bottom-up only approach to retail network planning.
                   Uncertainty about retail costs and potential savings from investment in optimization.


13
  National Association of Postmasters of the United States, The League of Postmasters, Mark Strong, Robert
Rapoza, Marilyn Shaw, and Marilyn Hill, Complaint Regarding Postal Service Proposed Rule “Post Office
Organization And Administration: Establishment, Classification And Discontinuance,” 39 CFR Part 241,
May 23, 2011, http://www.prc.gov/Docs/73/73002/2011.05.23_Postmasters%20Complaint.pdf.


                                                        6
U.S. Postal Service Office of Inspector General                                                          June 9, 2011
Barriers to Retail Network Optimization                                                               RARC-WP-11-005


To be successful, a retail optimization initiative must address, if not resolve, each of
these obstacles. The first imperative is to understand them. The rest of this section
explores each of the statutory, regulatory, political, and institutional barriers. We start
with the obstacles found in law.

Statutory Barriers

The Postal Service faces a triumvirate of statutory obstacles to optimizing its retail
facilities. These barriers are summarized in Table 2 and then discussed in detail.
                                             Table 2: Statutory Barriers

                Statutory Barrier                                                Description
Title 39 Restriction on Closing Post Offices              Restriction in 39 U.S.C. § 101 against closing Post
                                                          Offices solely for operating at a deficit.
Annual Appropriation Restriction                          Annual appropriations proviso against use of funds to
                                                          close or consolidate any small Post Offices.
Statutory Notice and Appeal Requirements of               Procedural requirements for community study, notice,
39 U.S.C. § 404(d)                                        publication of findings, and appeal to the PRC of any
                                                          proposed Post Office closing or consolidation.



Title 39 Restriction on Closing Post Offices
The 1970 Postal Reorganization Act included language (Section 101(b)) that

           The Postal Service shall provide a maximum degree of effective and
           regular postal services to rural areas, communities, and small towns
           where post offices are not self-sustaining. No small post office shall be
           closed solely for operating at a deficit, it being the specific intent of the
           Congress that effective postal services shall be insured to residents of
           both urban and rural communities [emphasis added].

The Postal Service tends to regard this statutory provision as an absolute prohibition. In
the mid-summer update to its 10-Year Action Plan, the Postal Service said it “is
absolutely prohibited by Congress from closing Post Offices based solely on economic
circumstances. Put simply: we cannot close Post Offices that don’t generate enough
revenue to cover their expenses.”

There is no doubt that the statutory language is restrictive and constitutes a formidable
obstacle to retail modernization and optimization. But it may not be as absolute as the
Postal Service suggests. First, it applies only to small Post Offices. This is a mixed
blessing, since as shown in the OIG retail optimization study, the size and spacing of
retail units in large urban areas appear to be optimal on average.14 It is in smaller towns
and rural areas where the study shows the Postal Service has on average too many
facilities spaced too closely together to match consumer demand efficiently. To the

14
     Specific urban areas, however, may have too many or too few retail facilities, and optimization may be desirable.


                                                             7
U.S. Postal Service Office of Inspector General                                                          June 9, 2011
Barriers to Retail Network Optimization                                                               RARC-WP-11-005


extent that the statute drives the Postal Service to consider facility closures only in
urban areas, it may constitute a positive disincentive to optimize the network.

A second observation is that the statute does not prevent closing a Post Office for
reasons other than operating at a deficit. Losing money is not a sure-fire guarantee of
untouchability. The OIG’s study offers an approach for optimizing the location of retail
facilities in order to match retail supply to retail demand. The goal is not simply to
eliminate unprofitable Post Offices but to match retail supply to demand, maximize net
revenue, and improve service.

Perhaps as a result of the statutory restriction, most of the 4,000 closures in the past
40 years have followed a period of suspension, which is commonly triggered when a
postmaster has resigned, retired, or died, a lease has been discontinued, or a building
has become unusable due to damage or deterioration.
Suspicion in Congress that the Postal Service was              Perhaps as a result of the
                                                               statutory restriction,
manipulating the emergency suspension procedure was
                                                               most of the Post Office
the subject of a 1999 congressional hearing and                closures in the past
resulted in a voluntary moratorium on closings that            40 years have followed a
lasted from 1998 to 2003. When the moratorium was              period of suspension.
lifted, several hundred suspended locations went
through the closure process. More recently, the PRC has asked whether the Postal
Service was suspending Post Offices without making any effort either to reopen or
formally close them.15 The Postal Service has provided a list of suspended facilities to
the PRC and intends to request an advisory opinion in the near future that will discuss
the Postal Service’s approach for handling suspended facilities. Once a location has
been closed for a number of years, the formality of its actual discontinuation is seldom
contested. If the Postal Service had chosen to find new postmasters or buildings for
these locations, the redundancy problem would be even larger than it is today.

A third point that is sometimes forgotten is that when the Postal Reorganization Act was
passed with the Section 101 restriction on closing small Post Offices that operate at a
deficit, the same law authorized an appropriation (in addition to the revenue forgone
appropriation) “as reimbursement to the Postal Service for public service costs incurred
by it in providing a maximum degree of effective and regular postal service nationwide,
in communities where post offices may not be deemed self-sustaining.”16 Congress thus
did not intend that the Postal Service bear all the costs of redundant retail facilities. The
Postal Service has not received such an appropriation since 1982,17 nor requested one
since the early 1980s. This authorization, however, is still in effect, with a limit of $460
million annually under a formula that has not been updated since 1970.

Senator Tom Carper has sponsored legislation (S. 1010 in the 112th Congress) that
would remove the statutory restrictions on consolidating Post Offices solely for
operating at a deficit and the language explicitly favoring rural areas to “a maximum

15
   See Docket No. PI2010-1, Investigation of Suspended Post Offices.
16
   39 U.S.C. § 2401(b)(1).
17
   As part of the efforts to cut the federal budget in the early 1980s, the public service appropriation was reduced to
$12,140 in 1982 and eliminated in 1983 and 1984.


                                                            8
U.S. Postal Service Office of Inspector General                                                           June 9, 2011
Barriers to Retail Network Optimization                                                                RARC-WP-11-005


degree.” He has done so as chairman of the Senate Subcommittee with legislative
jurisdiction over the Postal Service.

Annual Appropriation Restriction
Even if the language introduced by Senator Carper were to be enacted, however,
another statutory obstacle would still exist. Ever since 1985, the Postal Service
appropriations bill has been enacted each year with a proviso stipulating that none of
the appropriated funds “shall be used to consolidate or close small rural and other small
                               post offices.” Although the stipulation must be re-enacted
  Since 1985, the Postal       each year to remain in effect, it has become such a
  Service appropriations       familiar part of the statutory framework that its inclusion is
  bill has included a          automatically assumed. The budget that the President
  provision that the funds
                               sends to Congress each year contains thousands of
  should not be used to
  close small rural and
                               suggestions to strike language from the preceding year’s
  other small Post Offices.    appropriation bills, but it routinely recommends
                               reenactment of the post office proviso without comment.
The Postal Service regards the language as equally restrictive as the companion
proviso requiring six-day delivery. Although the language limits only the use of
appropriated funds, $113 million in FY 2010, it serves to signal congressional
disapproval of small Post Office closures.

Statutory Notice and Appeal Requirements of 39 U.S.C. § 404(d)
A third statutory obstacle had its genesis in a 1975 GAO report recommending that
12,000 rural Post Offices be closed to save money.18 Although GAO contended that
retail service could actually be improved by consolidating scattered and inefficient
locations, the report met with a “storm of reaction,” according to a 1977 Presidential
Commission, and resulted in a highly critical congressional hearing that caused GAO to
retreat.19 More significantly, it led to passage of legislation (P.L. 94-421) imposing a
temporary moratorium against closing or consolidating any Post Offices and
establishing a permanent procedure requiring extensive study, community consultation,
a published report, and an opportunity for any affected citizen to appeal a consolidation
decision to the PRC. The law is clearly intended to make it difficult to close a Post
Office.

In making a decision, the law requires the Postal Service to consider the effects on the
community of closing a Post Office, the effects on employees, and “whether such
closing or consolidation is consistent with the policy of the Government, as stated in
section 101(b) of this title, that the Postal Service shall provide a maximum degree of
effective and regular postal services to rural areas, communities, and small towns


18
   U.S. General Accounting Office, $100 million Could Be Saved Annually in Postal Operations in Rural America
Without Affecting the Quality of Service, Report No. GGD-75-87, http://archive.gao.gov/f0402/097016.pdf,
June 4, 1975.
19
   At the hearings, the GAO representative stated that “If we had the report to write over again, it would be different.”
House Committee on Post Office and Civil Service, GAO Recommendation that 12,000 Small Post Offices Be
Closed: Joint Hearings before the Subcommittees on Postal Service and Postal Facilities, Mail, and Labor
Management, 94th Cong., 1st sess., 1975, p. 35.


                                                            9
U.S. Postal Service Office of Inspector General                                             June 9, 2011
Barriers to Retail Network Optimization                                                  RARC-WP-11-005


where post offices are not self-sustaining.”20 These determinations constitute a high
hurdle in themselves. It is difficult to imagine that the Postal Service could close an
operating Post Office without incurring some negative effects on the community or
employees of the facility and that substitute arrangements would provide a “maximum”
degree of service to a small town. The law requires the Postal Service to make these
findings in a written report provided to the community at least 60 days before any
proposed consolidation. The law then allows “any person served by such office” to
appeal the determination to the PRC.

Regulatory Barriers

In addition to statutory obstacles, the Postal Service also confronts regulatory barriers.
Table 3 lists these obstacles, and they are described below.

                                       Table 3: Regulatory Barriers

            Regulatory Barrier                                          Description
Time and Expense of Appeals Process               The Postal Service bears the administrative burden of
                                                  complying with the notification and appeals process.
PRC’s Expanded Definition of “Post Office”        The Postal Service believes the requirements of 39
                                                  U.S.C. § 404 apply only to Post Offices not stations and
                                                  branches. The PRC disagrees.
Review of Optimization as a Nationwide            Any nationwide effort to change services requires PRC
Change of Service                                 advisory review.



Time and Expense of Appeals Process
When it receives an appeal of a proposed closing or consolidation of a Post Office, the
PRC establishes a docket to support an on-the-record review of the determination made
by the Postal Service, with 120 days allowed for its decision. The PRC may “set aside”
a determination that it finds arbitrary, capricious, procedurally defective, or “unsupported
by substantial evidence” on the record. The PRC’s rules of procedure spell out a
complicated set of requirements for written briefs, a full administrative record, evidence
of posting notifications, interveners, and an opportunity for oral argument under certain
circumstances.

It could be argued that these procedural requirements are not a great hurdle because
ultimately the PRC can suspend but not modify the determination of the Postal Service.
However, there is past evidence that the Postal Service found the process to involve
more costs than benefits and thus backed off at even the hint of a possible appeal. A
GAO review of the process found that requirements led to an average of 19 months in
processing time. In the early years of the process from 1978 through 1981, the Postal
Service’s determination was affirmed in very few cases. At the time GAO also found that
the Postal Service delayed or dropped replacement proposals whenever “a high
probability exists that a strong individual or collective appeal will be made to the PRC….

20
     39 U.S.C. § 404(d)(2)(A).


                                                   10
U.S. Postal Service Office of Inspector General                                                   June 9, 2011
Barriers to Retail Network Optimization                                                        RARC-WP-11-005


For example, at one [facility GAO] visited, Postal Service officials stated that 20 of the
23 proposed replacements they had attempted in the last 5 years were dropped when
the potential for community protest became evident.”21 Part of the reason for hesitation,
according to GAO, was that administrative and appeal costs could well outstrip the
savings to be gained from discontinuation.

The PRC now remands appeals cases far less frequently, and appeals do provide a
venue for citizens to complain about Post Office closings. Still, the process imposes an
administrative burden on the Postal Service’s staff. In the 10 years prior to 2010, there
were few official discontinuances and therefore few appeals, but the number has grown
in the last 2 years as the Postal Service has closed previously suspended Post Offices
and facilities on its SBOC list and begun new Post Office closures. If the Postal Service
undertook a significant optimization effort, the number of appeals would mount. The
Postal Service is working to reduce the time it takes to implement closures, and the
recently proposed changes to the closure process are part of that effort. Clearly, without
the 120 days required for each appeal, optimization efforts could be implemented more
rapidly.

PRC’s Expanded Definition of “Post Office”
The Postal Service has always drawn a distinction between a “Post Office,” headed by a
postmaster, and a branch or station under the administrative supervision of a Post
Office in an urban area. The Postal Service has argued that the notice, comment,
documentation, and appeal procedures of 39 § U.S.C. 404(d) apply only to independent
“Post Offices,” and not to the consolidation of a station, branch, contract unit, or other
subordinate facility. To the public, however, the distinction is opaque since Post Offices,
branches, and stations all provide retail postal services and are staffed with Postal
Service employees.

The PRC concluded in its advisory opinion on the SBOC initiative that the “patrons of all
retail Postal Service facilities should be provided with the same opportunity to assure
that established procedures are adhered to, whether or not it is required by statute.”22
The PRC, however, agreed with the Postal Service that the SBOC docket was
insufficient to support a final resolution of the legal dispute over whether closing a
branch or station requires all of the statutory and appeal procedures of 39 § U.S.C.
404(d).

The new closure rules proposed by the Postal Service
                                                                             The new closure rules
include similar closing procedures for all postal-operated
                                                                             proposed by the Postal
facilities, lengthening the time it will take for station and                Service include similar
branch closures. The Postal Service’s internal                               procedures for all postal-
instructions formerly provided only a 20-day comment                         operated facilities.
period for station and branch closings and did not

21
   U.S. General Accounting Office, Replacing Post Offices With Alternative Services: A Debated but Unresolved
Issue, Report No. GGD-82-89, September 2, 1982, http://archive.gao.gov/f0102/119464.pdf, pp. 24 and 28.
22
   U.S. Postal Regulatory Commission, Advisory Opinion Concerning the Process for Evaluating Closing Stations and
Branches, Docket No. N2009-1, March 10, 2010, http://www.prc.gov/Docs/67/67174/Advisory_Opinion_031010.pdf,
p 66.


                                                       11
U.S. Postal Service Office of Inspector General                                   June 9, 2011
Barriers to Retail Network Optimization                                        RARC-WP-11-005


require a written report to the community documenting the community or employee
impact. Under the new rules, the Postal Service would provide a 60-day comment
period. Since stations and branches would be treated similarly to Post Offices, turning
an independent Post Office into another postal-operated facility such as a station or
branch would no longer be considered a consolidation. Also, the closure procedures
would no longer apply to Community Post Offices (CPOs) operated by contractors in
small towns.

Although the Postal Service has made accommodations to the PRC’s perspective, it
has not changed its view that under current law only Post Office discontinuances are
properly appealed to the PRC. When the Postal Service announces its final
determination to close a station or branch, it will not post instructions describing how to
appeal as it does for Post Offices. The clash of these different viewpoints may confuse
customers and raise barriers to efficient optimization.

Optimization as a National Change of Service
Title 39 U.S.C. § 3661(b) states

        When the Postal Service determines that there should be a change in the
        nature of postal services which will generally affect service on a
        nationwide or substantially nationwide basis, it shall submit a proposal,
        within a reasonable time prior to the effective date of such proposal, to the
        Postal Regulatory Commission requesting an advisory opinion on the
        change.

The Postal Service employed this procedure “in its discretion” when it proposed the
SBOC initiative and originally thought that it could cover 3,000 or more stations and
branches. When the affected universe dropped to 162, the Postal Service thought better
of the idea and attempted to argue that the potential service changes were insufficient
to trigger a PRC examination and that the PRC was obligated to terminate the
proceeding. The PRC disagreed on the grounds that many more locations had originally
been included and could be included again.

If the Postal Service is to attempt a broadscale retail network optimization, it is difficult
                                 to see how it could fail to trigger a PRC review under
   If the Postal Service is to
                                 Section 3661(b). The prospect of a full docket proceeding
   attempt a broadscale
   retail network
                                 with field hearings at facilities likely to close, with ample
   optimization, it is difficult attention to the views of traditional opponents and the
   to see how it could fail to   PRC’s public representative, raises a serious disincentive
   trigger a PRC review.         for the Postal Service to attempt retail modernization at
                                 all.

Political Barriers

Political barriers are perhaps the most challenging obstacles to change. The opposition
to closing any particular Post Office can be strong, and the benefits from that single



                                                  12
U.S. Postal Service Office of Inspector General                                             June 9, 2011
Barriers to Retail Network Optimization                                                  RARC-WP-11-005


closure are relatively small. Table 3 summarizes these political barriers, which are then
described.

                                         Table 4: Political Barriers

              Political Barrier                                           Description
Congressional Complaints                           The closure of a Post Office often generates complaints
                                                   to members of Congress, who may then intervene.
Motivated and Well-Organized Political             There are influential stakeholder groups opposed to
Opponents                                          Post Office closings.
Lack of Political Allies                           Few stakeholders are interested in committing
                                                   resources to encourage optimization and modernization
                                                   of the retail network.



Congressional Complaints
The Postal Service has found through long experience that Post Office customers do
not hesitate to contact their members of Congress when a Post Office is scheduled to
close. A member can draw on a number of tactical tools to dissuade the Postal Service
from closing a Post Office. One is simply to raise a public objection, knowing that the
Postal Service is exceedingly reluctant to enter into a public dispute with a member.
Another is to withhold support for major legislative objectives. Should these approaches
fail to deter the Postal Service, language can be added to a committee report instructing
the Postal Service to study the matter further and report back to the committee.

While even a single representative or senator has power that the Postal Service cannot
afford to ignore, it must also beware of generating a broader reaction that could make
retail modernization an even more distant and difficult prospect. For example,
102 members of the House co-sponsored H.R. 658 in the 111th Congress — a bill
intended to make it more difficult for the Postal Service to close retail locations, such as
by adding more notice and study requirements and forbidding the Postal Service from
considering economic savings in reviewing Post Offices, branches, and stations.

Motivated and Well-Organized Political Opponents
At the July 30, 2010, House Oversight and Government Reform Subcommittee hearing
on the SBOC initiative, witnesses appearing to testify against any broadscale
restructuring of retail operations included the National League of Postmasters, the
American Postal Workers Union, the National Association of Letter Carriers, the
National Rural Letter Carriers Association, the National Postal Mail Handlers Union, and
the National Association of Postal Supervisors. These organizations, plus NAPUS and
the Association of United States Postal Lessors also participated as interveners in the
PRC’s docket on the SBOC initiative, and their arguments were cited in detail in the
PRC’s decision. Many of these organizations also have participated in the PRC’s
ongoing review of Post Office suspensions.

In addition to formal participation in such forums, opponents of change to retail
infrastructure are active in letter writing campaigns and the public relations battle for the


                                                     13
U.S. Postal Service Office of Inspector General                                               June 9, 2011
Barriers to Retail Network Optimization                                                    RARC-WP-11-005


preservation of Post Offices. NAPUS has for many years published the Red Book, a
detailed guide for local action to prevent the closing of Post Offices. As anyone knows
who follows the postal press, these organizations are knowledgeable, well-organized,
well-motivated, and formidable participants in the political arena.

Lack of Political Allies
If opponents of closing Post Offices are highly motivated and well organized, the same
cannot be said of countervailing interests that would like to see a smaller and more
efficient postal retail presence. There is no natural constituency for creating an
optimized retail network even if it might provide better service overall. GAO and the OIG
have testified on the virtues of retail modernization, but both are strictly non-political.
Mailers associations do not feel directly affected by the issue and have been muted in
their support.

The lack of political support was apparent in the July 30, 2009, House hearing on the
SBOC initiative where those objecting to the initiative dominated the hearing. Two
mailers groups testified (the Direct Marketing Association and the National Postal Policy
Council) but only the latter directly supported the initiative on the grounds that the Postal
Service needed flexibility to cut costs from the system. It hardly provided a
counterweight to the opponents of the initiative who were much more numerous and
vocal. Similarly, with the single exception of Valpak, if any of the 55 individuals and
groups who participated in the PRC’s SBOC docket made a full-throated defense of the
initiative, the 70-page opinion took no notice of it, while recognizing in careful detail
arguments of opponents such as the APWU or Post Office lessors. As a result, the
Postal Service stands virtually alone in confronting the political dimension of retail
modernization.

Institutional Barriers

While external statutory, regulatory, and political barriers foster a discouraging
environment for retail optimization and modernization, barriers to change can also be
found within the Postal Service. Table 5 lists these institutional barriers.

                                      Table 5: Institutional Barriers

             Institutional Barrier                                       Description
Lack of Sustained Management Commitment           In the past the Postal Service has not consistently
                                                  focused on retail network optimization.
Lack of a Comprehensive, Well Articulated         Focusing on a positive optimization and modernization
Retail Vision                                     plan can reorient the debate toward improving the
                                                  network rather than just closing Post Offices.
Bottom-up Approach to Retail Network              Allowing only local officials to bring forward optimization
Planning                                          opportunities may hinder consistency.
Lack of Data about Retail Costs and Potential     The Postal Service does not have the necessary data
Savings                                           to make optimization decisions about its retail network.




                                                    14
U.S. Postal Service Office of Inspector General                                                       June 9, 2011
Barriers to Retail Network Optimization                                                            RARC-WP-11-005


Lack of a Sustained Management Commitment
One reason for lack of progress in recent years is that the Postal Service has not placed
a consistently high priority on modernizing its retail network as a goal of its various
plans to achieve financial viability. A review of the public
                                                                One reason for lack of
messages on this subject provides ample evidence of
                                                                progress it that the
ambiguity and inconsistency. For example, it took less          Postal Service has not
than 3 years for the Postal Service to abandon its              placed a consistently
Transformation Plan goal of eliminating low-value and           high priority on
redundant locations. In 2004, the Postal Service sent           modernizing its retail
Congress an Infrastructure and Workforce Rationalization        network.
plan that minimized the significance of the issue, saying
that “the savings from closing small post offices are minimal, since the potential savings
in personnel and office rent are often more than offset by the additional cost of rural
delivery service needed in lieu of post office box delivery.”23

A reader of the 2010 Action Plan for the Future would be hard pressed to discern that
retail modernization is a part of the plan. The only reference to it in the summary is:
“Expand Access. Modernize customer access by providing services where customers
are. Increase and enhance customer access through partnerships, kiosks, and
improved online offerings, while reducing costs.” 24 There is no mention in the plan of
the need for congressional action to allow the Postal Service to optimize its retail
infrastructure. The current FAQ on the action plan precedes its discussion of how many
Post Offices will close (“There is no projected number”) with a statement that two other
initiatives — eliminating prepayment of retiree health benefits and changing delivery
frequency — “provide the greatest cost-savings opportunities and are the priority
solutions for the Postal Service.”25 The SBOC languished for a year or more because,
as postal management told the OIG, other initiatives took priority, including 5-day
delivery.26 The Postal Service’s recent actions to close facilities and make closing
procedures more efficient suggest that management may be renewing its focus on retail
optimization.

Lack of a Comprehensive, Well-Articulated Strategic Retail Vision
GAO and the OIG have each carefully studied the challenges and opportunities
presented by the postal retail network. GAO issued a report in 2007 recommending that
the Postal Service adopt a proactive, criteria-based approach to assist in identifying
unneeded retail facilities for possible closure as part of the June 2008 facility plan
required by the PAEA.27 As mentioned in the introduction to this white paper, the OIG
23
   As cited in U.S. Government Accountability Office, U.S. Postal Service: Postal Service Needs to Clearly
Communicate How Postal Services May Be Affected by Its Retail Optimization Plans, Report No. GAO-04-803,
http://www.gao.gov/new.items/d04803.pdf, July 13, 2004, p. 29.
24
   U.S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future, March 2, 2010,
http://www.usps.com/strategicplanning/_pdf/ActionPlanfortheFuture_March2010.pdf.
25
   U.S. Postal Service, Ensuring a Viable Postal Service for America: Frequently Asked Questions, March 2010,
http://www.usps.com/communications/newsroom/deliveringfuture/pdf/dtf_FSfaqs.pdf, p. 2.
26
   U.S. Postal Service Office of Inspector General, Stations and Branches Optimization and Consolidation Initiative,
Report No. EN-AR-10-005, http://www.uspsoig.gov/foia_files/EN-AR-10-005.pdf, August 17, 2010, p. 12.
27
   U.S. Government Accountability Offices, U.S. Postal Service Facilities: Improvements in Data Would Strengthen
Maintenance and Alignment of Access to Retail Services, Report No. GAO-08-41, December 10, 2007,


                                                          15
U.S. Postal Service Office of Inspector General                                                      June 9, 2011
Barriers to Retail Network Optimization                                                           RARC-WP-11-005


developed a retail optimization model that the Postal Service could use to meet demand
more efficiently and equitably in a way that cuts costs, improves service, and aligns the
retail network to the way people live now.28

The vision of a modern, optimized retail network based on location economics and best
practices contrasts sharply with the current approach the Postal Service has presented
to the public and Congress. This approach has two thrusts. One is to develop and
promote alternatives to the postal retail network and drive potential customers to use
banks, grocery stores, and ATMs for stamps and contract facilities rather than Post
Offices for retail transactions. The other thrust, fitfully applied in recent years, has been
to focus on the thousands of Post Offices, stations, and branches that lose money and
to select targets for elimination of as many as possible, while asking Congress for relief
from the statutory and regulatory obstacles that have stood in the way of discontinuation
initiatives. Both of these approaches are essentially negative. Driving customers away
and closing existing facilities are a limited and shortsighted response to current
problems, with the downside that postal customers can perceive that they are victims of
cost-cutting.

What is lacking is a positive retail vision as an alternative to the tired, age-old battle over
“closing Post Offices.” Such an alternative, if strongly and clearly articulated, could
                            persuade the public, its representatives in Congress, and
 What is lacking is a       perhaps even postal employees that they could be better off
 positive retail vision     with an optimized retail presence that matches customer
 as an alternative to       demand with expanded services provided more efficiently.
 the tired, age-old         Lacking such a vision, and plans to carry it out, it is
 battle over “closing
                            impossible to measure the shortfall between the retail
 Post Offices.”
                            infrastructure that does exist, and the benefits that a
                            modernized structure could provide.

Bottom-up Approach to Retail Network Planning.
In contrast to a comprehensive retail vision, until recently the Postal Service position
has been that facility decisions should be made on a local, case-by-case, bottom-up
basis. While embracing the necessity of a national plan to optimize the processing and
distribution network, the Postal Service has deliberately eschewed taking the same
approach to its retail network. It rejected GAO’s 2007 recommendation to include the
retail network in its 2008 facility plan, countering that “we have learned that each facility
must be assessed on a case-by-case basis, and we intend to continue to use this
method.”29 The Postal Service has only recently proposed changing its rules to allow
headquarters to suggest retail facilities for possible discontinuance.


http://www.gao.gov/new.items/d0841.pdf, p. 43. As noted on pp. 7 and 56 of the GAO report, the Postal Service
disagreed with the recommendation, defending its case-by-case approach.
28
   U.S. Postal Service Office of Inspector General, Analyzing the Postal Service’s Retail Network Using an Objective
Modeling Approach, Report No. RARC-WP-10-004, http://www.uspsoig.gov/foia_files/RARC-WP-10-004.pdf, June
14, 2010.
29
   U.S. Government Accountability Office, U.S. Postal Service Facilities: Improvements in Data Would Strengthen
Maintenance and Alignment of Access to Retail Services, Report No. GAO-08-41, December 10, 2007,
http://www.gao.gov/new.items/d0841.pdf, p. 56.


                                                         16
U.S. Postal Service Office of Inspector General                                                      June 9, 2011
Barriers to Retail Network Optimization                                                           RARC-WP-11-005


A problem with the historical bottom-up approach is that it depends heavily on
postmasters or their immediate superiors, most of whom are former postmasters whose
current stature is based in part on the installations reporting to them. Postmasters are in
many senses the management bedrock of the institution. Their interests are aligned
directly against closing Post Offices since there has been a one-to-one relationship
between Post Offices and postmaster jobs. The national offices of the two management
associations that represent postmasters are the most aggressive and vocal opponents
of post office consolidations, testifying against the Postal Service in congressional and
PRC hearings and organizing letter writing and op-ed campaigns in opposition to
particular proposed consolidations. It is not surprising that the bottom-up process has
failed to generate internal enthusiasm and momentum that is necessary to sustain an
initiative that is nationwide and challenging in scope.

The OIG’s report on the retail network suggests that complementing the Postal
Service’s bottom-up approach with a top-down optimization framework can bring
consistency to the optimization process. A top-down approach allows the Postal Service
to adjust retail supply to retail demand in each area, while maintaining the same
principles. The bottom-up, case-by-case knowledge then allows customization to local
circumstances.

Lack of Data about Retail Costs and Potential Savings
A weakness in the Postal Service’s argument that it needs to close Post Offices is that
there is no common understanding on the amount of the excess cost burden attributable
to redundant facilities. The Postal Service has never cited a
                                                                There is no common
savings figure or target. All that Postmaster General Potter
                                                                understanding on
could tell Congress in his final testimony about the financial  the amount of the
importance of closing unwanted retail locations was “Saving     excess cost burden
costs on ‘brick and mortar’ expenses will help us remain        attributable to
viable.” The Congressional Research Service (CRS) noted         redundant facilities.
the weakness arising because the Postal Service “has not
said how much money it may save from this undertaking,” and urged Congress “to ask
the USPS what its projected savings are and when these savings might be realized.”30

As GAO, the PRC, and the OIG have repeatedly reported, the Postal Service does not
collect adequate financial data at the local facility level to support decision making of the
kind that commercial retail enterprises routinely collect and analyze.31 A major drawback
is that cost reporting does not separate retail from delivery functions at all facilities. The
OIG retail optimization report provided the only estimate we could find of the cost
burden of not optimizing the network.32 But the $5.5 billion estimate was heavily
qualified as a “rough estimate” because basic comprehensive data were not readily
available. Likewise, GAO, in a nationwide audit of the Postal Service’s facility database
in 2007, found it riddled with errors and useless for identifying unneeded retail facilities
30
   U.S. Congressional Research Service, Post Office and Retail Postal Facility Closures: Overview and Issues for
Congress by Kevin Kosar, CRS Report R40719, August 7, 2009, p. 18.
31
   See the discussion above on pp. 3 and 5.
32
   There have been a few estimates of the cost burden of keeping open small Post Offices that do not pay their way,
but these have not discussed retail network optimization in general.


                                                         17
U.S. Postal Service Office of Inspector General                                                     June 9, 2011
Barriers to Retail Network Optimization                                                          RARC-WP-11-005


that could be closed.33 A major conclusion of the PRC’s review of the SBOC initiative
was that “financial analysis of station and branch operations should be improved,” citing
cost analyses submitted in defense of the initiative as misleading and incomplete.34

Even more recently, an August 17, 2010, audit by the OIG found major errors in the
system used to track discontinuance of retail units. For example, postal management
reported to the PRC that 96 stations and branches had been closed between FYs 2005
and 2008, but subsequently had to file a correction that reduced the number to 21 for
the same period. According to the Postal Service Annual Reports, the number was 187.
The audit also found that lease termination clauses existed in 10 of 80 agreements
where decisions were made based on their absence, and that 71 of 171 facilities
identified as being in areas of “high revenue and/or growth” were in fact in areas with
zero or negative growth rates. Inconsistencies like these resulted in part from the
reliance on local management for decision-making, which in turn made the
discontinuation review process “primarily subjective and qualitative in nature.”35

Comprehensive, reliable data are critical for developing a top-down approach toward
optimizing the network. As long as the Postal Service refuses to collect data that would
                                allow it (or others, like the PRC, GAO, and the OIG) to
  Comprehensive, reliable
  data are critical for
                                look at its retail infrastructure as a whole, it is never going
  developing a top-down         to be able to determine how to rationalize its retail
  approach toward               presence or to make a reliable estimate of the costs it
  optimizing the network.       could avoid by undertaking such an effort. Lacking a
                                statement of the benefits to be gained from a nationwide
discontinuation initiative, there is no effective response to those who point to the pain
and costs involved in shutting specific facilities.


Conclusion
Even though the external statutory, regulatory, and political barriers that hinder
optimization of the retail network are serious and long-standing, the time may be right
for new efforts to tackle optimization. The Postal Service’s financial condition is very
poor, and there is a new emphasis in Washington on cutting back government’s reach
and cost. There may be a new willingness to remove some of the externally imposed
barriers discussed in this paper. In preparation, the Postal Service could focus on three
actions:

       Articulating a national strategy to enhance customer access to retail postal
        services, increasing options in fast-growing urban and suburban areas, offering

33
   U.S. Government Accountability Office, U.S. Postal Service Facilities: Improvements in Data Would Strengthen
Maintenance and Alignment of Access to Retail Services, Report No. GAO 08-41, December 10, 2007,
http://www.gao.gov/new.items/d0841.pdf, pp. 43, 45, 56.
34
   U.S. Postal Regulatory Commission, Advisory Opinion Concerning the Process for Evaluating Closing Stations and
Branches, Docket No. N2009-1, March 10, 2010, http://www.prc.gov/Docs/67/67174/Advisory_Opinion_031010.pdf,
pp. 57-61.
35
   U.S. Postal Service Office of Inspector General, Stations and Branches Optimization and Consolidation Initiative,
Report No. EN-AR-10-005, http://www.uspsoig.gov/foia_files/EN-AR-10-005.pdf, August 17, 2010, pp. 17-18.


                                                        18
U.S. Postal Service Office of Inspector General                                  June 9, 2011
Barriers to Retail Network Optimization                                       RARC-WP-11-005


        longer hours and more window services at consolidated facilities in rural areas,
        and closely linking with a network of alternative sources for routine transactions.
        This would be a strategy of optimization, and a departure from the single-minded
        focus on closing Post Offices. When describing the strategy, the Postal Service
        should clearly discuss what optimization entails, how long it will take, the
        approximate shape and character of the resulting optimized network, and the
        benefits of optimization to the Postal Service and its customers. The OIG’s recent
        study provides underpinning for some of this work, and it is not new. The German
        post, Deutsche Post, was able to shrink its network while improving customer
        satisfaction by embracing alternatives to the traditional postal network.

       Developing a robust framework for using a top-down approach to optimization to
        complement its bottom-up efforts. Multiple GAO and OIG reviews have called
        into question the Postal Service’s dependence on district and local management
        to select facilities for discontinuance case-by-case, based on factors they decide,
        without guidance. Both GAO and the OIG have recommended that the Postal
        Service adopt an integrated optimization strategy with consistently applied
        criteria and time frames for implementation, to replace the “incremental approach
        based on local decisions” and undefined criteria. The Postal Service has opened
        the door to allow top-down decision making on facilities. It should craft a
        comprehensive framework for making these decisions.

       Improving cost data and analysis. Lack of relevant data prevents the Postal
        Service from offering anything but anecdotal examples of money-losing facilities.
        It also leads to lukewarm support from mailers, who have no hard evidence that
        retail optimization can make a significant contribution to reducing the budget and
        thus keeping postage rates under control. Improved cost data could allow the
        Postal Service to show the cost of the inefficiency that results from the failure to
        optimize the retail network.

Should the Postal Service’s efforts to address external barriers fail to make headway,
another alternative that could be considered is to request a public service appropriation
again — either for $460 million as authorized under current law or under an updated
method of calculation approved by Congress. The Postal Service takes pride in pointing
out that it has operated without this appropriation since 1982, but Congress put in place
the appropriation to pay for public service infrastructure beyond what an economic
approach would dictate. While an appropriations request is unlikely to result in a cash
infusion, that is not really the point. Such a request would underscore that requiring the
Postal Service to maintain its legacy of unneeded facilities is an unfunded mandate. It
would also put a price tag on something that now appears to be free to everyone but the
Postal Service. When Congress was faced with the bill for supporting unneeded
locations, from 1901 to 1970, it forced the Post Office Department to close 45,000 Post
Offices.

Even if the Postal Service is able to successfully optimize its retail network, the Postal
Service may need to continue to operate some money-losing retail units to fulfill its
universal service obligation. While opportunities may exist to improve the profitability of


                                                  19
U.S. Postal Service Office of Inspector General                                June 9, 2011
Barriers to Retail Network Optimization                                     RARC-WP-11-005


these cost centers, turning them all into a profit centers may not be possible. Instead,
the Postal Service could develop a list of retail costs centers required for universal
service and request appropriations to fund them.

Discussions of right-sizing the Postal Service’s retail footprint are not new. It is
characteristic of an issue with 110 years of history that attitudes and opinions become
well ingrained and most observers assume that the future will be much like the past. But
another lesson of history can be that if a breakthrough is finally to be made, “out of the
box” thinking about solutions that would normally be impossible to achieve needs to be
part of the debate.




                                                  20
